Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Medicare Conditions of Participation for
          Organ Donation:

  An Early Assessment of the New Donation Rule




                        JUNE GIBBS BROWN
                         Inspector General

                            AUGUST 2000
                           OEI-01-99-00020
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                          Alan Levine, Program Specialist

Maria E. Maddaloni, M.A., Program Analyst                 Barbara Tedesco, Mathematical Statistician

                                                                    Linda Moscoe, Program Analyst





         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                      EXECUTIVE                        SUMMARY

PURPOSE

         To provide an early assessment of hospitals’ and organ procurement organizations’
         responses to Medicare conditions of participation designed to increase organ donation.

BACKGROUND

         More than 71,000 Americans are waiting for organ transplants, yet only 22,000 received
         organ transplants last year. More than 6,000 people died while awaiting a transplant.

         As many as 15,000 deaths occur annually that could yield suitable donor organs. Yet
         fewer than 6,000 of those deaths result in the donation of an organ.

         In June 1998, the Health Care Financing Administration (HCFA) changed the Medicare
         conditions of participation to spur an increase in donation. In this report, we refer to this
         new condition as the “donation rule.” The donation rule contains two key provisions:

         C        Hospitals must contact their organ procurement organization (OPO) in a timely
                  manner about individuals whose death is imminent or who die in the hospital.
         C        Only OPO staff or trained hospital staff — referred to as designated requestors —
                  may approach families about organ donation.

         This report focuses on hospitals’ and OPOs’ early experiences with the donation rule. We
         base our findings on a survey of all 61 OPOs; responses from 353 hospitals representing a
         stratified sample of Medicare-certified hospitals; site visits to 2 OPO service areas, where
         we interviewed hospital clinicians and administrators, OPO staff, and staff from tissue
         banks; and interviews with staff at 8 other OPOs.

FINDINGS

Hospitals and organ procurement organizations have made progress in
implementing the donation rule.

         Hospitals are showing some improvement in their referral of potential organ donors.
         Two-thirds of OPOs reported an increase in the number of potential organ donors referred
         by hospitals. Based on our survey, we estimate that 40 percent of hospitals nationally
         have seen an increase in the number of potential donors that they have referred to OPOs.



Organ Donation Rule                                1                                      OEI-01-99-00020
         OPOs are using the rule to increase the prominence given to organ donation within
         hospitals. Nationally, 65 percent of hospitals are seeing an increase in their overall
         interaction with OPOs.

         OPOs are collecting data and providing feedback to hospitals on their performance
         in referring potential donors. Most OPOs are performing routine death record reviews,
         which serve as the basis for feedback to hospital administrative, quality assurance, and
         clinical staff.

However, OPOs and hospitals have not taken full advantage of the donation rule.

         OPOs resist using hospital staff to discuss organ donation with families. Research
         shows that a collaborative approach between OPO staff and hospital staff yields the
         highest consent rates. However, in our survey and site visits we found:

         <	       Limited training of designated requestors. Only 22 of the 61 OPOs had trained
                  designated requestors in more than 10 percent of their hospitals; 23 OPOs had
                  trained none at all.
         <	       Tensions between physicians and OPOs. Many physicians believe that the
                  designated requestor provision intrudes on their right to practice medicine, because
                  it requires that they must be trained by the OPO in order to discuss organ donation
                  with their patients’ families.
         <	       Limited involvement of hospital staff. Many hospital staff feel untrained or uneasy
                  in approaching families to discuss donation.

         Hospitals are not consistently notifying their OPO of all deaths or imminent deaths.
         Our survey of OPOs and our site visits found that many hospitals are failing to notify their
         OPO of potential donors. Only 2 OPOs responded that all hospitals are reporting all
         imminent deaths; 9 OPOs said that fewer than 25 percent of hospitals are reporting all
         imminent deaths.

         OPOs consider their relationship with hospitals to be collegial. They resist taking
         forceful actions to ensure that hospitals notify them of all deaths or potential donors.
         OPOs stress professional education and internal hospital improvement. They rarely use
         other strategies, such as publicizing hospital-specific performance data on donation and
         referral. Even when hospitals fail to notify them of potential donors, OPOs indicated that
         they would not inform HCFA.

         Despite projections of a 10 percent increase, the number of organ donors rose by less
         than 1 percent in the first year of the donation rule. The number of organ donors
         increased by only 44 — from 5,807 in 1998 to 5,851 in 1999. In 28 OPOs, the number of
         donors decreased in 1999. Several factors may explain the shortfall between expectation
         and achievement. One explanation may be that implementing a change such as this takes


Organ Donation Rule                                2                                     OEI-01-99-00020
         longer than originally anticipated. A second factor may be the 1-year grace period that
         HCFA gave hospitals before enforcing the donation rule. In addition, many OPOs already
         had voluntary referral programs with some hospitals in their service areas.

HCFA does not obtain routine data to assess how well the donation rule is
working.

         HCFA lacks a mechanism to assess the rule’s impact on organ donation. Although
         OPOs collect data and provide feedback to hospitals on their performance, the
         organizations are not required to share these data with HCFA.

         HCFA lacks a proactive way to assess hospital compliance with the rule. The agency
         does not require OPOs to submit either aggregate or hospital-specific data that it could
         use to assess the extent to which hospitals are complying. Nor does it obtain routine
         information about OPOs’ efforts to collaborate with hospitals to implement the rule.

         HCFA relies on State certification agencies and the Joint Commission on
         Accreditation of Health Care Organizations to ensure hospitals’ compliance with the
         rule. These surveys take place every 3 years, and donation activities encompass only a
         minor part of that review.

RECOMMENDATIONS

HCFA should revise the Medicare conditions for coverage for OPOs to make them
more accountable for implementation of the donation rule.

         Because the donation rule is a Medicare condition of participation for hospitals, it places
         the obligation for compliance solely on hospitals, with no requirements for OPOs.
         Effective implementation of the rule requires accountability on behalf of OPOs as well as
         hospitals.

         HCFA should require OPOs to provide hospital-specific data on referrals and on
         organ recovery. HCFA could utilize these data to assess hospital compliance with the
         donation rule, identify hospitals which are out of compliance with the conditions and, if
         appropriate, initiate corrective action. These data should include relevant medical
         indicators and information on consent.

         HCFA should require OPOs to make hospital-specific data on donation publicly
         available. Public information could encourage hospitals to work to maximize their
         participation in donation activities and would foster public discussion and education on
         donation.



Organ Donation Rule                                3                                     OEI-01-99-00020
HRSA should require that OPOs, as members of the Organ Procurement and
Transplantation Network, submit hospital-specific data on referrals and on organ
recovery.

         Our recommendation to HCFA specifies the types of data elements which should be
         included. In fact, in a proposed new contract to operate the OPTN, the Health Resources
         and Services Administration has proposed that the OPTN maintain such data. Our
         recommendation is consistent with the proposed language in the renewal contract.

HRSA, in its funding initiatives, should support demonstration projects on how to
effectively train and make use of designated requestors.

         In 1999, HRSA funded $13 million in grant programs to OPOs and community groups.
         None of these programs addresses the role of designated requestors in the donation rule.
         In future funding solicitations, HRSA could give strong consideration to proposals to
         develop innovative programs for training designated requestors. Such programs might
         include use of distance learning and computer-based training strategies.

HRSA should develop an award that recognizes hospitals that demonstrate
exemplary performance in donation.

         HRSA could work with HCFA and other agencies to develop criteria for this award,
         which would be an incentive for hospitals. It could be based on the data submission we
         describe above, as well as other efforts, such as community education programs. HRSA
         could issue the award during National Organ and Tissue Donor Awareness Week.

COMMENTS ON THE DRAFT REPORT

         We received comments on our draft report both from within the Department and from
         external organizations. We present the full text of the written comments in Appendix B.
         In the body of the report, we respond in full to all written comments. Here, we describe
         the key points made in the comments. For the external organizations, we also provide, in
         italics, a summary of our response.

Comments from within the Department

         HCFA and HRSA provided written comments on our draft report, and the Office of the
         Assistant Secretary for Planning and Evaluation provided verbal comments. These
         agencies responded positively to our report and recommendations.

Comments from the Association of Organ Procurement Organizations

         Overall, AOPO disagrees with many of our findings and recommendations. The

Organ Donation Rule                              4                                    OEI-01-99-00020
         association raises a number of points, but places particular emphasis on our findings and
         discussion about limited training and use of designated requestors.

         We base our finding about designated requestors on surveys of and discussions with the
         OPO and hospital communities. We believe that these data sources provide balanced
         evidence. We acknowledge the expertise of OPO staff in working with families.
         However, at an organizational level, we found a number of practices that indicate OPO
         resistance to training and using hospital staff as designated requestors. It is because of
         the concerns we identified that we recommend that HRSA support projects on how to
         effectively train and use designated requestors.

Comments from the American Hospital Association

         Overall, AHA raises concerns about our recommendations related to increased reporting
         of hospital-specific data on donation. The association believes that “the full freight of
         increasing organ donation nationwide cannot and should not rest on a regulatory
         solution.”

         Our recommendations proceed from the underlying assumption that data measurement
         forms the basis for performance improvement. In our efforts to determine the extent to
         which hospitals are complying with this Medicare condition of participation, and the
         extent to which organ donation has changed in response to it, it was readily apparent to
         us that timely data are not available on a voluntary basis. It is for this reason that we
         recommend that HCFA require the submission of such data.




Organ Donation Rule                               5                                     OEI-01-99-00020
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


PRIMER ON ORGAN DONATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


FINDINGS


          Progress being made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          OPOs and hospitals have not taken full advantage . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          HCFA lacks data to assess the donation rule . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Only slight increase in number of donors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


RESPONSE TO COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . 25


APPENDICES


          A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


          B: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


          C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49





Organ Donation Rule                                               6                                                   OEI-01-99-00020
                              INTRODUCTION

PURPOSE

         To provide an early assessment of hospitals’ and organ procurement organizations’
         responses to Medicare conditions of participation designed to increase organ donation.


BACKGROUND

         More than 71,000 Americans are waiting for organ transplants, yet only about 22,000
         received organ transplants last year. More than 6,000 people died while awaiting an organ
         transplant. An estimated 12,000 to 15,000 deaths occurring in the United States every
         year could yield suitable donor organs. However, fewer than 6,000 of those deaths result
         in the donation of an organ.1

         Organ donation requires close coordination and support among organ procurement
         professionals, hospital and medical personnel, and grieving families. On page 11, we
         present a primer that provides an overview of organ donation.

The Department’s Role in Organ Donation

         Health Care Financing Administration (HCFA). HCFA carries out several important
         responsibilities with respect to organ procurement. The agency specifies organ
         procurement service areas and certifies organ procurement organizations (OPOs) for
         participation in Medicare. HCFA, through the Medicare program, provides funding for
         organ procurement organizations.

         Medicare covers organ transplantation for Medicare beneficiaries. Of special note is
         Medicare coverage for kidney transplantation. End Stage Renal Disease is unique, in that
         it is the only disease-specific condition that qualifies someone for Medicare coverage,
         regardless of age. That coverage includes kidney transplantation.

         HCFA also determines the conditions of participation for hospitals, including their
         interactions with OPOs.

         Health Resources and Services Administration (HRSA). HRSA’s Division of
         Transplantation provides Federal oversight and support for the organ procurement,
         allocation, and transplantation system. HRSA funds the Organ Procurement and
         Transplantation Network (OPTN) and the Scientific Registry of Transplant Recipients
         (SRTR). The contract for both of these operations is currently held by the United

Organ Donation Rule                               7                                     OEI-01-99-00020
         Network for Organ Sharing, a nonprofit organization based in Richmond, Virginia.

         The OPTN is charged with operating and monitoring an equitable system for allocating
         organs, maintaining a waiting list of potential recipients, matching potential recipients with
         organ donors, and increasing organ donation. All organ procurement organizations and
         transplant programs are members of the OPTN. The SRTR is a database on recipients of
         solid organ transplants; the database supports ongoing evaluation of the scientific and
         clinical status of transplantation.

         HRSA also is responsible for national coordination of organ donation activities, the
         funding of grants and special initiatives to learn more about what works to increase
         donation, and technical assistance to OPOs and other transplant-related entities. For
         example, HRSA conducts national technical assistance workshops that bring together staff
         from OPOs and hospitals to address implementation of the donation rule, and to identify
         and share effective practices in collaboration.

         The National Organ and Tissue Donation Initiative. In response to the need for organ
         donors, the Secretary launched this initiative in December 1997. The goals of the
         initiative are to increase consent to donation, maximize donation opportunities, and learn
         more about what works to increase donation and transplantation through carefully
         designed research efforts.2

Organ Procurement Organizations

         Each OPO serves a defined geographic area. The population in an OPO’s service area
         ranges from just over 1 million people to more than 11 million people. At the end of
         1999, 61 OPOs were in operation.3 HCFA certifies OPOs for two years. HCFA measures
         OPO performance on five standards related to organ procurement.4

         Every hospital has an agreement with one OPO. OPOs work with medical professionals
         and the public to encourage organ donation. They provide the services necessary to
         coordinate the identification of potential organ donors, requests for donation, and
         recovery and transport of organs.

The Donation Rule: Medicare Conditions of Participation for Organ, Tissue, and
Eye Donation

         HCFA published the final rule on Medicare conditions of participation for organ, tissue,
         and eye donation as part of the National Organ and Tissue Donation Initiative. The rule
         became effective August 21, 1998.5 The donation rule was based on a 1994 Pennsylvania
         law requiring hospitals to report all deaths to the OPO. The OPO in eastern Pennsylvania
         saw a 40 percent increase in organ donation in the first two years of operation, compared
         to an average increase of 3 percent nationally.


Organ Donation Rule                                8                                      OEI-01-99-00020
         In this report, we refer to these conditions of participation as the “donation rule.” The
         rule imposes several requirements that are designed to increase organ donation.6 The
         donation rule mandates that each hospital must contact its OPO in a timely manner about
         individuals whose death is imminent or who die in the hospital. The OPO then determines
         the individual’s medical suitability for organ donation. Because the hospital notifies the
         OPO of each death or imminent death, the rule is intended to ensure that the family of
         every potential donor is informed of its option to donate organs, tissues, or eyes.

         The donation rule also strengthens the role of OPOs in the donation process. It requires
         that families be advised of their donation options by an OPO representative or a
         “designated requestor” trained by the OPO. A designated requestor is defined in the
         donation rule as an individual who has completed a course offered or approved by the
         OPO in the methodology of approaching potential donor families and requesting organ
         donation.

         The designated requestor requirement is based on research showing that consent for organ
         donation is highest when the following practices are observed:
         C      The family members are given time to understand and accept their relative’s death
                before the organ donation request is made;
         C      The request is made by the OPO coordinator and a member of the hospital staff
                together;
         C      The request is made in a quiet, private setting.7

Importance of Collaboration between Hospitals and OPOs

         The critical piece to making these provisions work is collaboration and cooperation
         between hospitals and OPOs in identifying and managing potential donors and in obtaining
         consent from donor families. Hospitals and OPOs both have important roles to play in
         increasing donation. Hospitals must refer and manage donors; OPOs must train hospital
         staff on how to identifying and manage potential donors, and on how to request consent.
         The donation rule encourages the use of best practices, based on research that indicates
         that consent to organ donation is highest when the formal request is made by OPO and
         hospital staff together.

This Inquiry

         This report focuses on hospitals’ and OPOs’ early experience with the donation rule. We
         evaluate the progress OPOs and hospitals are making in implementing the donation rule,
         as well as obstacles encountered in implementation. This report focuses on the provisions
         of the rule relating to organ donation, not tissue and eye donation.




Organ Donation Rule                              9                                     OEI-01-99-00020
METHODOLOGY

         We surveyed the executive directors of the 61 organ procurement organizations in
         October 1999, with a 100 percent response rate. We also visited two OPO service areas.
         In each service area, we met with OPO staff, hospital staff (nurse managers,
         administrators, physicians, nurses, and quality assurance personnel), and tissue bank staff.
         In addition, we conducted in-depth interviews with staff from 8 OPOs to learn more about
         their experiences with the donation rule.

         We surveyed a stratified sample of Medicare-certified hospitals in February 2000, to learn
         more about their early experiences in implementing the donation rule. We stratified the
         sample by size: small hospitals (100 beds or fewer), medium (101 to 299 beds), and large
         (300 beds or more). We received usable responses from 353 hospitals, 78 percent of the
         total surveyed. Appendix A contains confidence intervals for the estimates derived from
         this survey.

         We also spoke with staff from other organizations with interest in the donation rule, such
         as the Association of Organ Procurement Organizations and the American Hospital
         Association. Appendix A contains a detailed description of our methodology.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Organ Donation Rule                               10                                    OEI-01-99-00020
         PRIMER ON ORGAN DONATION
The Process of Donation

1. Identifying a Potential Organ Donor. Organ donors appear at unpredictable times, most often from
tragic circumstances, such as an automobile accident, gunshot wound, or other trauma that causes
irreversible damage to the central nervous system. Upon admission to a hospital, the individual may be
maintained for up to several days on a ventilator, a machine that provides artificial life support for
breathing and respiratory function.

2. Notifying the Organ Procurement Organization (OPO). The hospital notifies its OPO about the
individual who has died or whose death is imminent. OPO staff obtain information needed for a
preliminary assessment of that individual’s medical suitability as an organ donor.

3. Managing the Donor’s Care. Medical, hospital, and OPO personnel monitor the individual’s progress
and maintain vascular organ function through medical treatment.

4. Determining and Declaring Brain Death. Physicians conduct tests to determine whether the individual
is brain dead. If brain death is confirmed, a physician declares death. Brain death is the complete and
irreversible loss of all brain function. Brain death can be determined through tests that include an
electroencephalogram (EEG) to determine the absence of electrical activity in the brain, blood flow studies
to determine the absence of blood flowing to the brain, or clinical assessment (no movement, no response to
stimulation, no breathing, no brain reflexes) to determine the absence of function in all parts of the brain.

5. Requesting Consent. A trained OPO staff member or a hospital’s designated requestor asks the
individual’s family members for consent to donate their relative’s organs. Even if the individual had
indicated willingness to donate organs (e.g., on the driver’s license), it is practice in this country to obtain
consent from the next-of-kin. A family may refuse to give consent, or it may give consent for donation of
all or only some organs.

6. Recovering Organs. If the family consents to donation, the organs are removed in an operating room
in a sterile surgical procedure.

7. Transporting Organs for Transplantation. The organs are shipped immediately to the transplant
hospital(s) where patient(s) awaiting a transplant receive them.


Key Terms in Organ Donation

Organ. Transplantable organs include the heart, liver, lungs, kidneys, pancreas, and intestines.

Imminent Death. Imminent death is defined under hospital policies devised in conjunction with its OPO.
Imminent death generally includes a severely brain-injured individual on a ventilator.

Designated Requestor. A designated requestor is an individual who has completed a course offered or
approved by the OPO in the methodology for approaching potential donor families and requesting organ
donation.


Organ Donation Rule                                    11                                          OEI-01-99-00020
                                      FINDINGS

Hospitals and organ procurement organizations have made progress
in implementing the donation rule.

Hospitals are showing some improvement in their referral of potential organ
donors.

         In response to our survey, 40 of the 61 OPOs reported an increase in the number of
         potential organ donors referred by hospitals since the rule took effect; 38 OPOs noted that
         the timeliness of hospital referrals had improved. Hospitals’ responses support those of
         the OPOs. Based on the results from our survey of hospitals, we estimate that 40 percent8
         of hospitals nationally have seen an increase in the number of imminent deaths they
         referred to OPOs. The impact of these changes was exemplified by donation coordinators
         we met with at one OPO. They told us that prior to the rule, they received 40-50 calls per
         month about potential donors, but now they were receiving over 100 calls per month.

         In addition to the overall increase in referrals, it is noteworthy that there is improvement
         among hospitals with little prior involvement in organ donation. According to 26 OPOs,
         organ donation occurred in hospitals that had not provided organ donors previously;
          23 OPOs reported an increase among those hospitals that had provided organ donors only
         occasionally.

         We found that fewer small hospitals — those with 100 or fewer beds — had an increase in
         the number of imminent deaths referred to the OPO (p<.01). Among the small hospitals,
         28 percent saw an increase in referral of imminent deaths, compared with 51 percent of
         mid-size hospitals (101- 299 beds), and 57 percent of hospitals with 300 or more beds.

OPOs are using the rule to increase the prominence given to organ donation
within hospitals.

         OPOs are taking advantage of the donation rule to increase their presence in hospitals.
         Nationally, we estimate that 65 percent of hospitals are seeing an increase in their overall
         interaction with the OPO since the rule went into effect. In 36 percent of hospitals the
         presence of OPO staff in the hospital has increased, and in 47 percent the OPO is more
         responsive to their concerns.

         This increased leverage results from linking referral of organ donors to the Medicare
         conditions of participation. Previously, a hospital’s involvement in donation depended to
         a large extent on the persuasiveness of OPO staff and the comitment of key clinicians and



Organ Donation Rule                               12                                      OEI-01-99-00020
         administrators. With the advent of the donation rule, hospitals face review of their
         participation in organ donation by the Joint Commission on Accreditation of Health Care
         Organizations and State survey agencies. One OPO staff member summarized this impact
         when she said that “Prior to the rule we came in at the hospital’s invitation. Now we have
         serious clout; we can encourage dialogue and collaboration.”

         The increased interaction with the OPO also has led to increased awareness among
         hospital staff about donation. We found this to be the case among smaller hospitals in
         particular. In their qualitative responses to our survey, many cited this increased
         knowledge among their staff as a benefit of the donation rule.

OPOs are collecting data and providing feedback to hospitals on their
performance in referring potential donors.

         Feedback is a key tool that the OPO staff use to work with hospitals on increasing
         donation. In response to our survey, 57 OPOs reported that they conduct death record
         reviews to verify hospitals’ reporting of deaths and imminent deaths. 52 OPOs reported
         that they also reviewed hospitals’ death logs. These reviews serve as the basis for the
         feedback that OPO staff give to hospital administration and quality assurance committees
         about a hospital’s compliance with the rule.

         In addition to this formal reporting structure, OPO staff provide feedback to the key units
         in the hospital, such as the intensive care unit, the emergency department, and other areas
         in which ventilator-dependent patients receive care. A good portion of OPO staff time is
         devoted to working with key nurses and physicians on these units. For example, staff at
         one hospital we visited told us that its quality assurance committee holds a conference
         after each referral for organ donation. These meetings, held with OPO staff, are used to
         determine what worked well, and where future improvements could be made.

         OPO feedback emphasizes two points that help guide OPOs’ education and training
         agenda for hospital staff. The first point relates to “missed potential donors,” i.e., those
         who were never identified or about whom the OPO never received notification. In these
         cases, educational efforts focus on identifying and referring potential donors.

         The second point relates to potential donors who were identified, but for whom the family
         did not give consent. For example, the hospital staff may have approached the family
         without involving the OPO at the appropriate time. Feedback to the hospital staff in this
         type of situation would focus on the need for timely OPO involvement in approaching
         families about donation.




Organ Donation Rule                               13                                      OEI-01-99-00020
However, OPOs and hospitals have not yet taken full advantage of the
donation rule.

OPOs resist using hospital staff to discuss organ donation with families.

         Research shows that a collaborative approach between OPO staff and hospital staff yields
         the highest consent rates. However, in our survey and site visits we found:

         Limited designated requestor training. Our survey found that 23 of the 61 OPOs had
         trained no designated requestors at all; only 22 OPOs had trained designated requestors in
         more than 10 percent of the hospitals in their service area. Based on our survey of
         hospitals, we estimate that 70 percent of hospitals had been offered designated requestor
         training by their OPO. But staff in only 44 percent of hospitals had, in fact, been trained.

         We heard of situations in which training programs were not marketed widely to hospitals,
         and situations in which the OPO made it difficult for hospital staff to attend — for
         example, holding a 3-day training program in a city that is several hundred miles away
         from some hospitals. In some cases, OPOs have established only a standard, one-size-fits-
         all program, lacking the flexibility to respond to the varying needs of hospitals or different
         types of providers, such as physicians and nurses.

         Tensions between physicians and OPOs. Many physicians believe that the designated
         requestor provision intrudes on their right to practice medicine. Undoubtedly, tensions
         existed between OPOs and physicians prior to the rule. But stipulating that physicians
         cannot discuss organ donation with families unless they have received designated
         requestor training from the OPO exacerbates these tensions.

         During our site visits we met with a number of physicians from hospital units in which
         there are potential organ donors, such as pediatric and adult intensive care units and
         trauma services. All were vehement about this provision, telling us that it puts them in a
         very awkward position with the family of a potential donor. One physician exemplified
         these feelings when he told us, “It is distasteful to call the OPO to meet with the family.
         This hospital has an open policy of working closely with families, and parents are involved
         in the care of their children. I hold nothing back from them; they are there at all
         procedures. Why am I not good enough to speak to them about organ donation?”

         Limited involvement of hospital staff. Among hospital staff, the designated requestor
         requirement may be leading to an unintended result. Rather than moving toward a
         collaborative approach to requesting consent, this provision runs the very real risk of
         turning consent into an OPO function, with little involvement from hospital staff. Our
         survey responses from hospitals and our visits with them supported this finding. Several
         of the qualitative responses to our hospital survey indicated that their staff were happy to

Organ Donation Rule                               14                                      OEI-01-99-00020
         turn requesting donation over to the OPO, because the hospital staff felt untrained and
         uncomfortable in approaching families.

         Controlling the consent process. OPOs have little incentive to train hospital-based
         designated requestors. OPOs cite their training and experience, as well as the time their
         staff are able to spend with the family as reasons for a higher consent rate. They can focus
         solely on donation and family concerns (whereas hospital staff must care for other patients
         on the unit). As one OPO staff member explained, “Gaining a family’s consent is a
         process, not a one-time thing. It takes a long time to discuss options, answer all their
         questions, answer questions that the family hasn’t even asked.” OPO staff cite their
         continuing experience and practice in approaching families, something that a trained
         designated requestor would not possess, even in a hospital with a large number of donors.

         At an organizational level, OPOs have a pragmatic reason for maintaining control. The
         OPOs feel that they — not hospitals — are responsible for meeting the minimum
         standards required to maintain their Medicare certification.9 Therefore, they believe that it
         is in their best interests to be in complete control of the process of obtaining consent.

         Implications. The implications of OPO reluctance to train designated requestors are
         multiple. First, if the requirements really do lead to separation of the OPO and hospital in
         obtaining consent, the positive impact of a collaborative approach to the family will be
         lost. Second, in hospitals that are geographically distant from the OPO, no one may be
         available with any knowledge about donation when the time comes to speak with a family.
         Even if the hospital contacts the OPO early in the process, distance may prevent the staff
         from getting to the hospital on time. In these cases, the opportunity to request consent
         may be lost, simply because no one is able to raise the issue.

         The lack of OPO training for designated requestors raises a fundamental conflict: It is up
         to the hospital to determine who may approach a family to request. The rule requires that
         “The individual designated by the hospital to initiate the request to the family must be an
         organ procurement representative or a designated requestor. A designated requestor is an
         individual who has completed a course offered or approved by the OPO.”10 However, if
         the OPOs are not training hospital staff to become designated requestors, then the hospital
         has no option but to use the OPO staff. This directly contradicts research showing that a
         collaborative effort between hospitals and OPOs is the most effective way of obtaining
         family consent to donation.

         An even more far-reaching problem may be the gradual disenfranchisement of hospital
         staff from involvement in organ donation. To the extent that nursing and other hospital
         staff see organ donation as “the OPO’s job,” one in which the hospital staff should have
         no involvement, there is likely to be little true collaboration or interest in organ donation.




Organ Donation Rule                                15                                      OEI-01-99-00020
Hospitals are not consistently notifying their OPO of all deaths or imminent
deaths.

         Many hospitals are moving forward to implement the donation rule; however, OPOs have
         not had complete success in working with hospitals toward implementation. Successful
         implementation is not something that the OPO can do on its own. After all, the rule is a
         hospital condition of participation, and it requires a great deal of commitment, initiative,
         and cooperation among the various parties involved.

         According to the OPOs, hospitals are not notifying them of all imminent deaths. In our
         survey, only 2 OPOs responded that all hospitals are reporting all imminent deaths;
         9 OPOs said that fewer than 25 percent of hospitals are reporting all imminent deaths.
         During our site visits, we reviewed detailed data from 1999 on imminent death reporting
         in three hospitals. These hospitals failed to report 43 percent, 29 percent, and 14 percent
         of the imminent deaths.

         From our observations, we identified three key challenges that hospitals face in taking full
         advantage of these provisions.

         Internal Hospital Leadership. In many hospitals, organ donation may be relatively low
         on the priority scale; it is just one of many things for which hospitals are responsible.

         Where donation is working well, there tends to be a champion who has taken the donation
         cause under his or her wing and who is leading the charge within the hospital. This
         leadership may come from administrative, nursing, or medical personnel (or, preferably, all
         three). Comments from two hospital administrators exemplify this point. In a hospital
         that had been struggling with organ donation, the administrator told us, “No one is really
         willing to wrap their arms around organ procurement.” In a hospital that was
         encountering success with donation, the executive said, “You really need an individual in
         the hospital to be committed to this. You need an avid supporter.”

         Physician Resistance. Above, we discussed the difficulty that the designated requestor
         provision poses for some physicians. Other concerns of physicians affect how the
         donation rule is implemented. In some hospitals, administrators may be reluctant to
         challenge medical staff who resist implementing the rule and have adopted a hands-off
         attitude toward these physicians.

         We heard consistently about the need for creative ways to inform the OPO of donor
         candidates by “going around the back” of the physicians to call the OPO. At one hospital
         (which had more than 20 organ donors — a relatively large number — in 1999), a nurse
         on the intensive care unit told us that “Physicians resent nurses notifying the OPO, so
         often we do it behind the scene.” Elsewhere, a nurse told us, “Most of the staff wait for
         the doctor to code the patient [declare the patient brain dead] before calling the OPO.”


Organ Donation Rule                               16                                     OEI-01-99-00020
         These instances of reluctance to contact the OPO early in the process occurred in hospitals
         with a large number of donors; undoubtedly, the problem is more severe in hospitals with
         fewer donors.

         Cumbersome Operational Procedures. In some hospitals it is not clear who will call the
         OPO in the case of a patient whose death is imminent. Some hospitals have interpreted
         these provisions to mean that only a nursing supervisor can phone the OPO. Other
         hospitals have interpreted the provisions to mean that only someone who has gone
         through the OPO-sponsored designated requestor training may notify the OPO.

OPOs consider their relationship with hospitals to be collegial. They resist taking
forceful actions to ensure that hospitals notify them of all deaths or potential
donors.

         In our work on external quality oversight of health care providers, we have found it
         helpful to consider oversight efforts in terms of a continuum, characterized by a collegial
         approach on one side and a regulatory approach on the other. External reviewers in the
         collegial mode focus on educating and improving performance; those in a regulatory mode
         focus on investigating and enforcing minimum requirements.11

         This continuum also is a useful way of viewing the relationship between OPOs and
         hospitals. As they currently operate, OPOs fall on the collegial, rather than regulatory,
         side of this continuum. OPO staff note that they are invited into a hospital at the
         hospital’s request, that they approach the hospital staff and physicians as professionals for
         peer education, and that their work with hospitals focuses on continuous process
         improvements, not on enforcement of minimum standards. Staff from OPOs we
         interviewed emphasized that it is HCFA’s job — not the OPOs’ — to enforce any
         noncompliance by hospitals.

         However, the OPOs do not facilitate HCFA’s ability to ensure compliance with the rule’s
         provisions. Only two OPOs indicated that they would inform HCFA about poor
         compliance by hospitals with the rule’s notification requirements. The OPOs strongly
         reject any enforcement role. In their qualitative responses to our survey, typical comments
         from OPOs included “concern of OPOs acting as a policemen — should not put OPOs in
         that position,” and “threat of HCFA punishment puts OPO in the position of tattling which
         impacts our working relationships negatively.”

         Rather, OPOs stress collegiality. When we asked OPOs about how they respond to a
         hospital that failed to notify them of all deaths or imminent deaths, 59 responded that they
         conduct additional training, 55 that they meet with hospital administration, and 47 that
         they provide feedback to the hospital quality assurance department. OPOs cited educating
         hospital staff, meeting with physicians, establishing donor awareness teams, and working
         with the hospital liaisons as their preferred strategies.


Organ Donation Rule                               17                                      OEI-01-99-00020
         Although OPOs have data and provide detailed feedback to hospital units, as we showed
         above, we found them extremely reluctant to provide hospitals with comparative data on
         their performance in organ donation. Staff we spoke with from hospitals that had
         increased donation took great pride in that fact. Most OPOs, however, do not release
         these data or share them with other institutions. However, at least one OPO — apparently
         the exception — does release these data, which include total referrals, organ referrals,
         organ donors, tissue referrals, and tissue donors.12


HCFA does not obtain routine data to assess how well the donation
rule is working.

HCFA lacks a mechanism to assess the rule’s impact on organ donation.

         OPOs gather data that could be used to help determine the rule’s impact on organ
         donation. These data could provide information to determine the success of efforts to
         increase donation and guide future initiatives. OPOs gather data on the number of
         hospital deaths, number of imminent deaths, potential candidates for donation, families
         approached for consent, and outcome of requests for consent. Indeed, these data form the
         basis of feedback that OPOs give to the hospitals in their service areas.

         OPOs, however, consider these data to be confidential information. They do not share the
         data with HCFA either at a hospital-specific level, or even at an aggregate OPO level.
         The only data that HCFA currently receives from OPOs are in an annual report on the
         total number of organ donors, number of kidneys procured and transplanted, and number
         of extra renal organs procured and transplanted. HCFA uses these data in its biennial
         OPO certification process to assess OPO performance in obtaining donors.

HCFA lacks a proactive way to assess hospital compliance with the rule in a
timely manner.

         OPOs collect data on the number of notification calls that hospitals make and how many
         they fail to make, based on the results of death record reviews. They also collect data on
         the rate of consent for donation. Again, however, HCFA does not require OPOs to share
         these data with the agency in a way that could be used to assess hospital compliance with
         the rule on an ongoing basis.

         The primary mechanism that HCFA uses to gather ongoing, timely information is its staff
         in the field. When the donation rule was promulgated, HCFA named four regional
         coordinators to work on implementing the regulation. These coordinators have been
         responsible for responding to calls and questions from OPOs and hospitals regarding
         implementation of the rule, and for training State surveyors.13

Organ Donation Rule                              18                                    OEI-01-99-00020
         Hospitals and OPOs may contact the coordinators when conflicts or problems develop.
         By its very nature, however, this arrangement is reactive. Furthermore, the coordinators
         are caught in a conflict between their efforts to provide technical assistance to hospitals
         and OPOs, versus the hospitals’ and OPOs’ perception of their role as regulators.

HCFA relies on State certification agencies and the Joint Commission on
Accreditation of Health Care Organizations to ensure hospitals’ compliance with
the rule.

         The Joint Commission and State survey and certification agencies assess compliance with
         all Medicare conditions of participation through their survey process. However, the
         interval between these surveys is lengthy. Hospitals accredited by the Joint Commission
         are surveyed every 3 years.14 State agencies conduct certification surveys even less
         frequently; as of late 1997, fully half of the nonaccredited hospitals had not had a survey
         within three years.15

         Furthermore, standards assessing the donation rule comprise a small part of accreditation
         and certification surveys.16 Several hospitals we visited had been surveyed by the Joint
         Commission prior to our visit. Staff at some of these hospitals told us that they had been
         asked only to show surveyors their policies and procedures governing organ donation.
         One hospital, which was not scheduled to have a Joint Commission visit for another year
         and a half, still did not have its policies and procedures in place.


Despite the reported increase in referrals, the number of organ donors
increased by less than one percent in the first year of the donation
rule.

Nationally, the number of organ donors increased by only 44, from 5,807 in 1998
to 5,851 in 1999.

         The Department projected that the donation rule would lead to a 20 percent increase in
         donation over a 2-year period, 10 percent in each of the first two years.17 This projection
         was based on the results of the Pennsylvania law, under which the OPO in eastern
         Pennsylvania saw a 40 percent increase in the first two years of operation. However, the
         results of the first full calendar year18 of HCFA’s donation rule fell far short of that
         expected progress.

         Not only did the total number of donors increase only marginally, but 28 OPOs also had
         fewer donors in 1999 than in 1998. In 19 of these 28 OPOs, the decrease was greater
         than 10 percent, and greater than 20 percent in 4 of them. In 31 OPOs, there was an
         increase in the number of donors procured in 1999.


Organ Donation Rule                               19                                     OEI-01-99-00020
         There may be some plausible explanations for the small increase in the first year of
         operation of the donation rule. One explanation may simply be that the time required to
         implement a change such as this is longer than originally anticipated.

         A second explanation may lie in the 1-year grace period that HCFA gave hospitals. HCFA
         informed hospitals that they would not be held to compliance with the rule for the first
         year. However, hospitals were expected to be working with their OPOs to achieve full
         implementation of the rule. It is likely that some hospitals were not moving towards
         implementation. In fact, we saw evidence of this slow progress during our site visits.

         Third, many OPOs already had voluntary routine referral programs with at least some
         hospitals in their service areas, and others operated in States with laws requiring referrals
         of deaths and imminent deaths. Consequently, these OPOs may already have achieved
         some of the increase that HCFA had projected. These laws and arrangements, however,
         do not contain any provisions analogous to the designated requestor requirement in the
         HCFA rule.

         Responses to our survey showed that 48 out of 61 OPOs had voluntary referral
         arrangements with at least some hospitals in their service areas. Under these
         arrangements, a hospital notified the OPO of deaths that occurred in the hospital. These
         arrangements varied; in some cases hospitals reported all deaths, in others they excluded
         deaths over a certain age or with certain diseases. We estimate that 51 percent of
         hospitals nationally had voluntary arrangements with their OPO prior to the donation rule.

         Some States, such as Pennsylvania, had enacted laws requiring hospitals to refer donors to
         the OPO. The OPOs responding to our survey indicated that 16 States have these
         required referral laws.19 Like the voluntary arrangements (but unlike the HCFA rule),
         these laws often exclude from the reporting requirements deaths of patients with certain
         diagnoses or above a minimum age. Significantly, though, the two OPOs in Pennsylvania
         — where the State law serves as the model for the HCFA rule — reported large increases
         in 1999; one OPO had 38 more donors (26 percent increase) and the other OPO had 33
         more donors (11 percent increase).




Organ Donation Rule                                20                                     OEI-01-99-00020
                        RECOMMENDATIONS
         Increasing organ donation is a high-priority national objective. More than 71,000
         seriously ill Americans are waiting for an organ; in 1999, more than 6,000 died while
         awaiting an organ. The need for organs for transplantation is reflected in national policies,
         such as the National Organ Transplant Act, Medicare coverage for renal failure, and
         broad-based educational efforts. These efforts are clear evidence that enhancing donation
         cannot be left to the vagaries of local performance.

         HCFA’s new Medicare conditions of participation for organ, tissue, and eye donation are
         such an initiative. This donation rule, promulgated in 1998, aims to give OPOs better
         access to hospitals and to potential organ donors therein. Our analysis is an early
         implementation study of that donation rule.

         Although we found some early signs of progress in improving referrals, we also found
         signs that difficulties lie ahead in realizing the donation rule’s potential. In particular, we
         found problems in the rule’s provision to improve the methods for obtaining family
         consent through designated requestors; the lack of data available to HCFA to assess the
         effects of the regulation and how hospitals and OPOs are responding to it; and the
         disappointing increase in organ donation during the first year of implementation.

         We offer the following recommendations as ways of increasing organ donation by helping
         to enhance the operations of the new donation rule. Both HCFA and HRSA have critical
         roles to play in maximizing the impact of the donation rule. HCFA sets the conditions
         under which both OPOs and hospitals participate in the Medicare program; HRSA
         oversees the OPTN contract and supports education to increase organ donation.

HCFA should revise the Medicare conditions for coverage for OPOs to make them
more accountable for implementation of the donation rule.

         Our guiding principle underlying this recommendation is straightforward: Maximizing
         organ donation requires coordination and collaboration between hospitals and OPOs. The
         donation rule, however, is contained in the Medicare conditions of participation for
         hospitals. While it provides OPOs with significant leverage that they can use to work
         with hospitals on donation, the rule places the obligation for compliance solely on
         hospitals; it sets no requirements for the OPOs. Effective implementation of the donation
         rule requires accountability on behalf of both OPOs and hospitals.

<	
<        HCFA should require OPOs to provide hospital-specific data on referrals and on
         organ recovery.

         We found that HCFA lacks a mechanism to assess the rule’s effect on donation and that

Organ Donation Rule                                 21                                      OEI-01-99-00020
         the agency lacks a proactive way to assess hospitals’ compliance with it. The most
         effective and efficient way of reaching these goals is to obtain data through the OPOs.
         The rule requires that hospitals notify their OPO of all patient deaths and patients whose
         deaths are imminent. Therefore, the OPOs have the necessary data readily available. We
         do not envision the need for data beyond what OPOs currently collect.

         OPOs should submit these data for all deaths or patients whose deaths are imminent in a
         hospital. One way in which the data could be collected and aggregated would be via OPO
         submission to the Organ Procurement and Transplantation Network.

         At a minimum, these data should include:

         C        Demographic information, such as hospital name, age of patient, and date of call;
         C        Relevant medical indicators, such as whether the patient was on a ventilator, the
                  causes/ circumstances of death, and diagnoses that preclude organ donation;
         C        Consent information, such as whether a request for organ donation was made,
                  whether the request was made by OPO or hospital staff, whether consent was
                  given, and whether organs were recovered; and
         C        The total number of deaths and imminent deaths in each hospital, and the number
                  for which the OPO never received notification, or received notification after the
                  ventilator had been disconnected.

         To make these data useful, HCFA should require that OPOs submit timely and accurate
         information. In fact, we believe that these data are sufficiently important for HCFA to
         include their timely and accurate submission in its OPO performance measures. In our site
         visits, we found that OPOs have these data readily available; in some cases, the data are
         shared with hospitals on a weekly basis. We believe that OPOs could reasonably,
         inexpensively, and easily provide current data on a quarterly basis.

         HCFA could use these data for three purposes. First, the data would provide a basis upon
         which HCFA and the Department could assess the effectiveness and impact of efforts to
         increase organ donation.

         Second, HCFA could use these data in the OPO certification process. The OPO
         community has raised concerns that current performance standards fail to reflect variation
         among OPOs in the potential donor pool. Some OPOs argue that their true potential
         donor pool is smaller than that in other service areas, due to local factors such as
         differences in the cause of death and population mix. We believe these data could be used
         to shed light on these differences and to begin to identify regional variation in the potential
         donor pool.

         Third, HCFA could use these data to assess hospital compliance with the conditions of
         participation. Having these data available would enable HCFA to identify and deal with


Organ Donation Rule                                22                                      OEI-01-99-00020
         noncompliant hospitals, rather than place that burden on the OPOs.

<	
<        HCFA should require OPOs to make hospital-specific data on donation publicly
         available.

         The data that an OPO has about hospitals’ performance on organ donation could be made
         available for publication in local newspapers or on the Internet. As we note above, at least
         one OPO already publishes these data in its annual report.

         One important goal in making such data publicly available is to hold hospitals more
         accountable for their performance in referring organ donors. We also know, however,
         that some parties may raise concerns that the data would be misinterpreted. We have
         heard concerns that patients might avoid a hospital that provides a large number of
         donors, out of fear that the hospital would be more interested in procuring their organs
         than in saving their lives. Contrary to those concerns, we believe that making these data
         publicly available would foster public discussion and education about the need for organs
         and could, indeed, spur donation.

HRSA should require that OPOs, as members of the Organ Procurement and
Transplantation Network, submit hospital-specific data on referrals and on organ
recovery.

         Organ procurement organizations are members of the OPTN, the private entity
         responsible for day-to-day operation of the national system for distributing organs. HRSA
         should require that the OPOs submit to the OPTN, and that the OPTN maintain, data on
         deaths and imminent deaths in hospitals.

         Our recommendation to HCFA specifies the types of data elements which should be
         included. In fact, in a proposed new contract to operate the OPTN, HRSA has proposed
         that the OPTN maintain such data. Our recommendation is consistent with the proposed
         language in the renewal contract.

HRSA, in its funding initiatives, should support demonstration projects on how to
effectively train and make use of designated requestors.

         In 1999, HRSA awarded $13 million in grant programs to OPOs and community groups.
         None of these programs addresses the role of designated requestors in the donation rule.
         In future funding solicitations, HRSA could give strong consideration to proposals to
         develop innovative programs for training designated requestors. For example, to address
         issues of long distance access to training programs, HRSA might encourage the use of
         innovative technologies, such as computer-based training strategies.

         It will be particularly important to pay attention to the role of physicians in discussing

Organ Donation Rule                                23                                      OEI-01-99-00020
         organ donation with families. The designated requestor provision has brought concerns
         about that role to the forefront. In a hospital setting, physicians are major influences in
         medical decisions, such as those surrounding organ donation. Many physicians believe
         that they are in the best position to discuss donation with, and obtain consent from, family
         members; OPO staff cite their own expertise, knowledge, and approach as more effective.

         We believe that it is important to encourage approaches to collaboration that effectively
         involve all the parties involved in requesting consent for donation.

HRSA should develop an award that recognizes hospitals that demonstrate
exemplary performance in organ donation.

         HRSA could work with HCFA and other agencies within the Department to develop
         criteria for this award. Such an award would serve as a positive incentive to hospitals to
         enhance their commitment and efforts in encouraging organ donation. It could be based
         on the data submission we describe above, as well as other efforts, such as community
         education programs. We suggest that it may be appropriate for HRSA to issue the award
         during National Organ and Tissue Donor Awareness Week.




Organ Donation Rule                               24                                     OEI-01-99-00020
   COMMENTS ON THE DRAFT REPORT
         Within the Department, the Health Care Financing Administration (HCFA) and the Health
         Resources and Services Administration (HRSA) provided written comments to our draft
         report. We also received verbal comments from the Office of the Assistant Secretary for
         Planning and Evaluation.

         We solicited comments on the draft report from the Association of Organ Procurement
         Organizations (AOPO) and the American Hospital Association (AHA). Here, we present
         a synopsis of the written comments from each agency and association, and, in italics, our
         response. We also made some editorial and technical changes in the report, based on
         these comments. Appendix B contains the full text of all written comments.

Health Care Financing Administration

         HCFA responded positively to our report and recommendations. The agency intends to
         explore ways in which additional data can be used to assess OPO effectiveness and
         hospital compliance with the donation rule. HCFA comments that our recommendation
         about making organ donation data publicly available should be considered, taking into
         account the potential for misinterpretation of these data.

         We support HCFA’s initiative to use data to assess OPO accountability. In response to
         HCFA’s concerns about public release of hospital-specific data on organ donation, we
         encourage the agency to review the experience of LifeGift, the Houston-based OPO,
         which has made such data publicly available in its annual report. The OPO has reported
         no adverse consequences from that effort.

         We appreciate the additional information that the agency provided about the work
         underway to estimate organ donation potential by OPO service area.

Health Resources and Services Administration

         HRSA responded positively to our report. The agency concurred in our recommendations
         to it. HRSA asks if the report could highlight examples of effective collaborative practices
         between OPOs and hospitals.

         We opted not to highlight any particular practices that we observed. Although we did
         find examples where things appeared to be working well, a full assessment of such
         practices is beyond the scope of this inquiry. We applaud HRSA’s ongoing efforts to
         identify and publicize effective practices, such as the two technical assistance workshops
         that the agency has led on “The Challenge of Collaboration.” These workshops have
         included presentations by OPO and hospital staff on successes and efforts to implement

Organ Donation Rule                             - 25 -                                  OEI-01-99-00020
         the donation rule.

         HRSA asks if unique circumstances surrounded the large increase in donation at the OPO
         in Eastern Pennsylvania after that State enacted its required referral legislation.

         Undoubtedly, there were some unique circumstances. We did not, however, conduct an
         independent analysis of that OPO’s performance, or the reasons underlying that success.

         HRSA recommends that we recommend to HCFA that it require hospitals to submit data
         on referrals and organ recovery directly to HCFA.

         We considered having hospitals, not OPOs, report these data directly to HCFA and the
         OPTN, but rejected that idea for two reasons. First, OPOs already collect these data in
         their ongoing collaboration and death record review in hospitals. Second, our suggested
         approach minimizes the reporting burden on hospitals. It seems much simpler to have
         the 59 OPOs (as of August, 2000) provide these data to HCFA and the OPTN, rather
         than to require each of 5,000 hospitals to submit the data.

Association of Organ Procurement Agencies

         Overall, AOPO disagrees with many of our findings and recommendations. The
         association raises a number of points, but places particular emphasis on our findings and
         discussion about limited training and use of designated requestors.

AOPO’s General Comments:

<	       AOPO states that an underlying presumption of our report is that full compliance with the
         donation rule will lead to an substantial and immediate increase in organ donation. The
         association notes that trends in donation are also affected by attitudes of the public and
         health professionals, as well as by causes and rates of death.

         We do not claim that the donation rule is, by itself, the “answer” to the shortage of
         organs. However, the donation rule clearly gives OPOs the opportunity to be notified
         about more potential organ donors. And, as we heard consistently from OPO staff, the
         rule gives OPOs greater clout and influence with hospitals to address donation. Our
         report cites evidence of the progress that has been made.

         Despite this progress, almost half of the OPOs had fewer donors in 1999 than in 1998; in
         almost one-third of OPOs this decrease was greater than 10 percent. By any measure, a
         national increase of less than one percent in organ donation must be considered a
         disappointment.

<        AOPO supports our view that both OPOs and hospitals are accountable for organ

Organ Donation Rule                             - 26 -                                  OEI-01-99-00020
         donation. However, the association notes that effective collaboration must extend beyond
         merely meeting the requirements of the donation rule.

         We agree. We recommend hospital-specific data submissions to HCFA as one way of
         increasing hospital accountability for organ donation. We also recommend that HRSA
         develop an award recognizing hospitals that show exemplary performance in organ
         donation. Both recommendations encourage joint ownership of organ procurement. As
         AOPO notes, our report focused solely on implementing the donation rule, not on
         additional activities that OPOs perform in their ongoing interactions with hospitals.

<	       AOPO recommends that we review “important, recent empirical work” by Siminoff, et al.,
         on organ donation. According to AOPO, this research found that consent for donation
         was highest when the request was made by an OPO coordinator.

         We appreciate AOPO’s pointing out this important research on organ donation. Data
         from the second study (completed in December 1999) have not yet been published, but we
         obtained copies of the final report on both studies submitted to the Agency for
         Healthcare Research and Quality, and we have reviewed that research carefully.

         We disagree with AOPO’s characterization of the findings from that research. The
         research does indicate that families who raised the issue of donation were more likely to
         donate, and it notes the importance of OPO staff spending time with families. On the
         central point that AOPO raises, however, the investigators report, “Donor rates were
         equivalent when doctors, nurses, social workers, or OPO staff raised the issue.”

<	       AOPO claims that the report did not fully develop the role physicians play in the donation
         process. The association asks for further recommendations directed at physicians and the
         medical community.

         We address the role that physicians play and their concerns about the donation rule at
         two distinct places. No one concerned about donation would disagree that additional
         steps could be taken to educate physicians and other health care professionals about
         organ donation. We urge AOPO to play a leadership role in developing approaches to
         working with medical and specialty groups to address these issues.

<	       AOPO believes that the Department of Health and Human Services, not individual OPOs,
         should have responsibility for any public reporting of hospital-specific compliance and
         other data about organ donation and recovery.

         We believe that OPOs should take on this responsibility for two reasons. First, OPOs are
         the local resource providing information to the public about organ donation. We view
         providing these data to the local area as part of that resource role. Second, as we note in
         our response to HCFA’s comments, the experience from at least one OPO indicates no


Organ Donation Rule                             - 27 -                                 OEI-01-99-00020
         adverse consequences from that effort.

<	       AOPO states that there is some evidence to suggest that hospital staff may be taking
         advantage of designated requestors to exclude OPOs from the donation process.

         We base our finding about designated requestors on survey data from both OPO
         directors and hospital staff. We believe that this provides balanced evidence on this
         question. We have added language in the report, based on our survey of hospitals. We
         found that about 70 percent of hospitals had been offered designated requestor training
         by the OPO, but that staff in only 44 percent of hospitals had, in fact, been trained.

<	       AOPO commented that the report did not include an assessment of the workload impact
         of the donation rule on OPOs, hospitals, and tissue banks.

         We examined that issue to a limited degree but did not report the data because it did not
         appear to impact implementation adversely. While 65 percent cited an increase in the
         number of deaths referred to the OPO, only 2 percent responded that the amount of time
         it takes staff to notify the OPO about a patient’s death posed a major obstacle; and only
         2 percent responded that the amount of record keeping required was a major obstacle.

<	       AOPO indicates that our report lends weight to conclusions of other research about the
         inadequacy of population-based performance measures.

         We did not assess the adequacy or inadequacy of population-based performance
         measures, but we are aware of the concerns that the OPO community has raised about
         such measures. We believe, and we state in our recommendations, that the data we call
         for OPOs to submit to HCFA and to HRSA (through the OPTN) could be useful in
         shedding light on the population mix and causes of death among service areas.

AOPO’s Specific Comments:

<	       AOPO claims that it is disingenuous to blame the donation rule for not achieving projected
         increases in organ donation, and it states that the projection is more of a challenge than a
         realistic projection.

         Nowhere do we blame the donation rule for not achieving the stated numerical goal. The
         simple fact of the matter, however, is that the actual increase in donation fell far short of
         the increase that the Department projected when promulgating this regulation.

<	       At several places the association disagrees with our findings and discussion about how
         OPOs resist using hospital staff to discuss donation.

         As we note above, we base these findings on surveys of and discussions with both the


Organ Donation Rule                             - 28 -                                   OEI-01-99-00020
         OPO and hospital communities. We acknowledge the expertise and training of OPO
         staff, their interaction with families, and their ongoing involvement with and knowledge
         of donation. However, at an organizational level, we found a number of practices that
         indicate OPO resistance to training and using hospital staff as designated requestors.

<	       The association states that OPOs were required to assist hospitals in implementing the
         donation rule, but did not receive additional funding to do so.

         We recognize that OPOs did not receive additional funding to implement the donation
         rule. However, an OPO would be able to recover the appropriate portion of those costs
         through its Medicare cost recovery process. In addition, to the extent that an OPO
         increased organ procurement, it would realize revenue by placing additional organs.

<	       AOPO cautions that a careful definition of the term “imminent death” is required for data
         collection statistics.

         We recognize that defining “imminent death” requires medical judgement, and that such
         a definition may differ among physicians, OPOs, and hospitals. We are not proposing
         that a national definition of imminent death be developed. We would expect an OPO to
         submit data to HCFA in accordance with the criteria and definition that the OPO uses.

American Hospital Association

<	       Overall, AHA raises concerns about our recommendations related to increased reporting
         of hospital-specific data on donation. The association believes that “the full freight of
         increasing organ donation nationwide cannot and should not rest on a regulatory
         solution.”

         Our recommendations proceed from the underlying assumption that data measurement
         forms the basis for performance improvement. In our efforts to determine the extent to
         which hospitals are complying with this Medicare condition of participation, and the
         extent to which organ donation has changed in response to it, it was readily apparent to
         us that timely data are not available on a voluntary basis. It is for this reason that we
         recommend that HCFA require the submission of such data.

<	       The association stresses the importance of maintaining collaborative relationships between
         hospitals and OPOs.

         We agree with the importance of collaborative relationships and cite a number of areas
         in which they are working well. But we also found areas in which improvements could be
         made. These areas include expanding the availability of designated requestor training
         for hospital staff and improving cumbersome operational procedures within hospitals.
         We hope that AHA will establish its own initiatives to deal with these shortcomings.


Organ Donation Rule                             - 29 -                                 OEI-01-99-00020
<	       AHA expresses concern about our recommendation that OPOs provide hospital-specific
         data to the Department on referrals and on organ recovery.

         As we note in our response to HRSA’s comments, OPOs already collect these data. We
         also felt strongly that our suggested approach would minimize the reporting and
         regulatory burden on hospitals. It seems much simpler (and, indeed, more amenable to
         the hospital community) to have the 59 OPOs provide these data to the Department,
         rather than to require each of 5,000 hospitals to submit the data.

<	       AHA notes that our report does not address the OPOs’ infrastructure capacity to deal
         with the requirements of the donation rule.

         As we note in our response to AOPO, we examined that issue to a limited degree but did
         not report the data because it did not appear to impact implementation adversely.

<	       AHA raises concerns that our recommendations would place OPOs in the position of
         ensuring compliance with a hospital condition of participation.

         Our recommendations do not call on the OPOs to perform a compliance function.
         Compliance monitoring would continue to be the responsibility of HCFA, the State
         surveyors, and the Joint Commission. Our recommendation would merely have the
         OPOs transmit data that they already collect to HCFA. HCFA could then use those data
         to assess if and where hospitals are not meeting their obligations.

<	       AHA disagrees with our recommendations that OPOs should make hospital-specific data
         on donation public. The Association raises concerns that the public might misconstrue
         these data and the performance of a particular hospital in this regard.

         As we note in our response to HCFA’s comments, the experience from at least one OPO
         indicates no adverse consequences from that effort.

<	       AHA agrees with our recommendation that HRSA support demonstration projects on
         training and using designated requestors. AHA urges the Department to establish projects
         to further the research on successful models of securing consent and encouraging
         donation.

         We welcome the AHA’s support of this recommendation. We believe that there are many
         opportunities to review and publicize effective practices on donation.




Organ Donation Rule                            - 30 -                                OEI-01-99-00020
                                                                                APPENDIX A

                                        Methodology


Data Collection from Organ Procurement Organizations

         We mailed a survey to the executive directors of the 61 organ procurement organizations
         in October 1999, with a follow-up mailing to those that had not responded in November.
         We received responses from all 61 OPOs in operation at that time. Since then, two OPOs
         no longer operate, and their service areas have been subsumed by other OPOs. We use
         61 OPOs in reporting our results because that was the number operating at the time of the
         survey.

Data Collection from Hospitals

         We mailed a survey to the chief executive officer of a stratified random sample of
         Medicare-certified hospitals in February 2000, with a follow-up mailing to those that had
         not responded in March.

         Our original sample comprised 450 hospitals, selected using HCFA’s OSCAR database.
         We stratified the universe into three groups, based on number of certified beds: hospitals
         with 100 or fewer beds, hospitals with 101 to 299 beds, and hospitals with 300 or more
         beds. When compared with the national distribution of Medicare hospitals, this strategy
         undersamples the smallest hospitals and oversamples the largest hospitals. We chose this
         sampling scheme because larger hospitals are more likely to see potential organ donors
         than are smaller hospitals. Because the donation rule applies to all Medicare-certified
         hospitals, we wanted to have adequate representation among all 3 categories of hospitals.

         Therefore, in presenting estimates from our hospital survey, we have weighted the
         responses to reflect their proportions in the national population. On the following pages,
         we present the confidence intervals for the variables used in this report, and a non-
         respondent analysis. We found no difference between the sample and the population on
         two key variables: type of hospital and hospital control.

         We deleted 3 hospitals from the original sample after internal consultations with other
         components of the Office of Inspector General, reducing our sample size to 447. We then
         found that another 8 hospitals had ceased operation, even though they still appeared in the
         OSCAR database, reducing our sample size to 439. We then found that 5 hospitals were
         “critical access hospitals,” for which the Medicare conditions of participation do not apply
         and which, therefore, were not subject to the donation rule. This reduced our final sample
         size to 434 hospitals.


Organ Donation Rule                             - 31 -                                  OEI-01-99-00020
                                                                                             APPENDIX A

         We received responses from 357 hospitals, yielding a response rate of 79 percent of the
         total sample. Deleting the responses from the 4 critical access hospitals yielded a total of
         353 responses, or 81 percent of the reduced sample of 434 hospitals.

Characteristics of Hospital Sample

               Certified        Population            Sample           Number of           Response
                Beds                                   Size            Responses             Rate
                  < =100                    3,236               150              117               78.0 %
                  101-299                   1,882               150              125               83.3 %

                  >= 300                    1,010               150              111               74.0 %

                      TOTALS                6,128               450              353               78.4 %

Non-Respondent Analysis

              Item:             Respondent                   Non-
                                                                                  Total           Percent
           Hospital Type            s                     Respondents
          General Hospitals       303 (85.8 %)             77 (79.4 %)               380           79.7 %
          Other Hospitals              50 (14.2 %)         20    (20.6 %)             70           71.4 %
          Total                          353                     97                  450           78.4 %

          Chi - square statistic = 0.5201                                        Degrees of freedom = 1



                 Item:                                                   Non-
                                            Respondents                                    Total     Percent
             Hospital Control                                         Respondents
     Voluntary non-profit                      190 (53.8 %)            55 (56.7 %)          245       77.6 %

     Proprietary                                65 (18.4 %)            17 (17.5 %)           82       79.3 %

     Public                                     98 (27.8 %)            25 (25.8 %)          123       79.7 %
     Total                                          353                     97              450       78.4 %

     Chi - square statistic = 0.0558                                                   Degrees of freedom = 2




Organ Donation Rule                                   - 32 -                                           OEI-01-99-00020
                                                                              APPENDIX A


Confidence intervals for key questions

                                                                           95 % Confidence
                                       Raw Value           Weighted
             Description                                                 Interval for Weighted
                                          (%)             Estimate (%)
                                                                                 Value

 Hospital had voluntary
                                         54.5 %              51.3 %            +/- 5.8 %
 arrangement to report deaths

 Increase in deaths referred to
                                         66. 9%               64.7             +/- 5.6 %
 OPO
 Increase in imminent deaths
                                         45.2 %              39.8 %            +/- 5.4 %
 referred to OPO

 Time needed to notify OPO about
                                         2.6 %               1.9 %             +/- 1.3 %
 a patient’s death

 Responsiveness of OPO to phone
                                         3.2 %               2.3 %             +/- 1.5 %
 calls

 OPO offered to train hospital staff
                                         72.3 %              70.3 %            +/- 5.4 %
 as designated requestor
 Hospital staff trained as
                                         44.3 %              43.7 %            +/- 5.7 %
 designated requestor by OPO

 Increase in hospital’s overall
                                         66.4 %              65.3 %            +/- 5.5 %
 interaction with OPO

 Increase in presence of OPO staff
                                         40.7 %              35.6 %            +/- 5.2 %
 in hospital

 Increase in responsiveness of
                                         49.1 %              47.1 %            +/- 5.8 %
 OPO to hospital’s concerns
 Increase in referral of donors -
                                         28.1 %               —                +/- 8.2%
 hospitals <= 100 beds

 Increase in referral of donors -
                                         50.8 %               —                +/- 9.2%
 hospitals 101-299 beds

 Increase in referral of donors -
                                         56.8 %               —                +/- 9.2%
 hospitals > = 300 beds




Organ Donation Rule                              - 33 -                              OEI-01-99-00020
                                                                                APPENDIX A

Site Visits

         We conducted site visits to the service areas of two OPOs: Southern California Organ
         Procurement Center (Los Angeles) and Southwest Transplant Alliance (Dallas). During
         our visits we interviewed staff from the OPO; hospital personnel, including nurses, social
         workers, administrators, and clergy; hospital-based physicians; and tissue bank staff.

Interviews with OPO Staff and External Stakeholders

         We interviewed, either in person or by telephone, staff from eight additional OPOs. We
         also interviewed staff from the Association of Organ Procurement Organizations, the
         American Hospital Association, the American Association of Tissue Banks, and the Eye
         Bank Association of America.




Organ Donation Rule                             - 34 -                                  OEI-01-99-00020
                                                                               APPENDIX B

                           Comments on the Draft Report
         In this appendix we present the full text of comments of the parties that responded to our
         draft report. We present them in the following order:

         C        Health Care Financing Administration

         C        Health Resources and Services Administration

         C        Association of Organ Procurement Organizations

         C        American Hospital Association




Organ Donation Rule                               - 35 -                                OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 36 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 37 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 38 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 39 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 40 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 41 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 42 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 43 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 44 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 45 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 46 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 47 -       OEI-01-99-00020
                               APPENDIX B




Organ Donation Rule   - 48 -       OEI-01-99-00020
                                                                                APPENDIX C

                                           Endnotes

1. HHS Fact Sheet, “National Organ and Tissue Donation Initiative,” April 16, 1999. In 1998,
organ donation increased 5.7 percent, the first substantial increase since 1995. Data on size of the
waiting list are updated through August 6, 2000, using data from the United Network for Organ
Sharing, at http://www.unos.org.

2. HHS Fact Sheet, “National Organ and Tissue Donation Initiative,” April 16, 1999.

3. By May, 2000, this number had decreased to 59 OPOs, as service areas were merged. We
conducted our survey at the end of 1999, and use 61 as the number of OPOs in this report.

4. To be recertified, OPOs must meet at least 75 percent of the national mean on four of the
following five standards, measured per million population, in their service area:
       C       organ donors
       C       kidneys procured
       C       kidneys transplanted
       C       extra renal organ procured
       C       extra renal organs transplanted.

   The Balanced Budget Act of 1997 authorizes the Secretary to expand the certification period
for an OPO to four years if appropriate on the basis of its past practices (P.L. 105-63, Sec. 4642).


5. HCFA recognized that full implementation of this rule could take up to a year, although it
expected hospitals to make progress toward implementation during the phase-in period.

6. 42 C.F.R., sec. 283.45 was added at 63 Fed. Reg. 33,875, June 22, 1998, effective August 21,
1998. The full regulation reads as follows:

         § 482.45 Conditions of participation: Organ, tissue, and eye procurement
                 (a) Standard: Organ procurement responsibilities. The hospital must have and
         implement written protocols that:
                 (1) Incorporate an agreement with an OPO designated under part 486 of this
         chapter, under which it must notify, in a timely manner, the OPO or a third party
         designated by the OPO of individuals whose death is imminent or who have died in the
         hospital. The OPO determines medical suitability for organ donation and, in the absence
         of alternative arrangements by the hospital, the OPO determines medical suitability for
         tissue and eye donation, using the definition of potential tissue and eye donor and the
         notification protocol developed in consultation with the tissue and eye banks identified by
         the hospital for this purpose;

Organ Donation Rule                             - 49 -                                  OEI-01-99-00020
                                                                                   APPENDIX C

                 (2) Incorporate an agreement with at least one tissue bank and at least one eye
         bank to cooperate in the retrieval, processing, preservation, storage, and distribution of
         tissues and eyes, as may be appropriate to assure that all usable tissues and eyes are
         obtained from potential donors, insofar as such an agreement does not interfere with organ
         procurement;
                 (3) Ensure, in collaboration with the designated OPO, that the family of each
         potential donor is informed of its options to donate organs, tissues, or eyes or to decline to
         donate. The individual designated by the hospital to initiate the request to the family must
         be an organ procurement representative or a designated requestor. A designated
         requestor is an individual who has completed a course offered or approved by the OPO
         and designed in conjunction with the tissue and eye bank community in the methodology
         for approaching potential donor families and requesting organ or tissue donation;
                 (4) Encourage discretion and sensitivity with respect to the circumstances, views,
         and beliefs of the families of potential donors;
                 ( 5) Ensure that the hospital works cooperatively with the designated OPO, tissue
         bank and eye bank in educating the staff on issues, reviewing death records to improve
         identification of potential donors, and maintaining potential donors while testing and
         placement of potential donated organs, tissues, and eyes take place.

7. William DeJong et al., “Requesting Organ Donation: An Interview Study of Donor and
Nondonor Families,” American Journal of Critical Care 7 (January 1998) 1: 13-23; Michael J.
Evanisko et al., “Readiness of Critical Care Physicians and Nurses to Handle Requests for Organ
Donation,” American Journal of Critical Care 7 (January 1998) 1: 4-12; Patrick McNamara and
Carol Beasley, “Determinants of Familial Consent to Organ Donation in the Hospital Setting,”
Clinical Transplants 1997, Cecka and Terasakai, Eds., (UCLA Tissue Typing Laboratory, 1998),
219-229.

8. Confidence intervals for all estimates appear in Appendix A.

9. To be recertified, OPOs must meet at least 75 percent of the national mean on four of the
following five standards, measured per million population, in their service area:

                          OPO Performance Standards:
                        Average per year for 1999 and 1998
                      Measure                             Mean*        Range*
 Donors per million population                            21.5       13.4 - 38.0
 Kidneys procured per million                             39.3       25.0 - 69.4
 Kidneys transplanted per million                         34.0       22.3 - 61.9
 Extra renal organs procured per million                  38.0       19.0 - 70.7
 Extra renal organs transplanted per million              34.4       15.2 - 67.7


Organ Donation Rule                              - 50 -                                   OEI-01-99-00020
                                                                                             APPENDIX C

 * The Puerto Rico OPO is included in the mean, but excluded from the range presented here


10. 42 C.F.R., sec. 482.45 (a) (3)

11. Office of Inspector General, The External Review of Hospital Quality: A Call for Greater
Accountability (OEI-01-97-00050), July 1999, p. 16.

12. LifeGift, the Houston-based OPO, provides hospital by hospital performance data in its
annual report.

13. The State surveyors survey only hospitals. The OPO surveys are conducted by HCFA
regional office staff.

14. Hospitals that receive Joint Commission accreditation are deemed to meet the Medicare
conditions of participation.

15. Office of Inspector General, The External Review of Hospital Quality: The Role of Medicare
Certification (OEI-01-97-00052), July 1999, p. 10.

14. For Joint Commission standards that relate to patient care or outcomes of care, hospitals
may receive a rating that ranges from 1 to 5, with 1 being “substantial compliance” and 5
“noncompliance.” In assessing a provision such as a hospital’s compliance with the donation rule,
the worst score possible is a 2, which stands for “significant compliance.”

17. Fed. Reg. 33,871 June 22, 1998.

18. The rule was effective August 21, 1998. The data reported here compare calendar years
1998 and 1999. These data are reported to HCFA for the OPO certification process.

19. In responses to our survey, OPOs indicated that the following States have laws that require
hospital to notify their OPO of all deaths. We have not done an independent legal review to
confirm these laws, or their specific provisions and limitations: Arizona, Delaware, Florida,
Hawaii, Maryland, Michigan, Mississippi, New Jersey, New York, North Carolina, Ohio,
Pennsylvania, Tennessee, Texas, Virginia, Wisconsin.




Organ Donation Rule                                      - 51 -                                  OEI-01-99-00020
